    I!                                                               NATIONAL SCIENCE FO1INBAT;OPI
                                                                         4201 WILSON BOULEVARD
                                                                        ARLINGTON, VIRGINIA 22230




                                   OFFICE OF
    I:                         INSPECTOR GENEWL




                                      MEMORANDUM                                                                                                                                               I


                                      DATE: October 16,1995                                                                                                                                    I
                                                                                                                                                                                               I
              .   .. ...   ~   -...                           . ..
                                                               ~                  .    ~   .. .., . . .-   -   - -~.. .   -.. - . .. .-.- ...   -   .   . -. .   , . .~. ~ ...
                                                                                                                                                                             ~ .. . . ..   -

                                      TO: Case #I95040016
I
                                      FROM:




                                      -
     I,                                     1-1
                                      THROUGH:                            Special Agent-in-Charge

                                      RE: Close-out of-hvestigation                                                                                                                            1
                                              On April 2 1, 1995 the Office of Inspector General received an anonymous
                                      allegation that several NSF employees in the Directorate for Engineering, specifically,
                                                       andt -                 were> abusing
                                                                                     - - h t
                                                         Specifically, the allegation stated tha-n-were               leaving the
                                      NSF building for several hours in the evening, returning and signing out at that time.

                                             We began our investigation by requesting attendance records for-          and
         I)                       m".          After reviewed sign-in and sign-out times for the individuals, we determined that
                                      no significant credit hours were being earned by eithe-       OM          Employment
                                      records f     o      r the period January through May 1995, disclosed that the latest sign-
                                      out time was 5:49 p.m. Employment records fo-             covering January 1995 through
         li
                                      May 1995 reflected the latest sign-out time as 7:50 p.m.
                                                                                                                                                                                               I
                                                                                                                                                                                               J

                                             Our review of the time records o-       an-disclosed         that there did not
                                      seem to be an exorbitant amount of credit hours being earned by either NSF employee.
                                      The attendance records o        i an-       reflect no pattern or unusual sequence of
                                      sign-out times that would arouse suspicion or the need for subsequent investigation. In
                                                                                                                                                                                               !
                                      the absence of more specific and relevant evidence it is not necessary to pursue the
                                      investigation hrther at this time. The investigation is closed at this time,
